                            NATIONAL SCIENCE FOUNDATION
                                  4201 Wilson Boulevard
                                ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL

MEMORANDUM

Date:       JAN 3 1 201Z

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support




From:


Subject:      Audit Report No. OIG-12-1-001
              International Computer Science Institute


This memo transmits McBride Lock and Associate's audit ofNSF Award Numbers IIS-0905647,
CNS-0433702, CNS-0855125, IIS-0819984, and CNS-0722035 awarded to the International
Computer Science Institute. The audit determines the allowability ofNSF-funded costs claimed
from October 1, 2004 to December 31, 2010, totaling $5,274,875 in costs claimed and $715,537
in cost share claimed for the awards.
Except for the $451,189 of questioned NSF funded costs, the auditors determined that the costs
and cost share claimed by the International Computer Science Institute under the NSF awards
appear allowable, allocable and reasonable; compliant with laws, regulations and award terms;
and properly accounted for and segregated. Additionally, the auditors found that the
International Computer Science Institute had properly segregated the NSF American
Reinvestment Recovery Act funds awarded for CNS-0855125 and IIS-0905647 in its accounting
system and submitted accurate and timely quarterly reports.

The auditors questioned $124,827 of claimed payroll, fringe benefit and indirect costs because
the costs claimed were not adequately supported by timely or appropriately certified effort
reports. The auditors also questioned $6,638 in travel costs because the costs represented air
travel on non-US flag carriers which are not allowable. In addition, the auditors questioned
$319,724 in subaward costs claimed because payroll costs were claimed without providing
adequate detail to allow the Principal Investigator (PI) to adequately evaluate and monitor the
reasonableness of the expenses claimed. Further, the subawardee had not implemented a labor
effort certification process, compliant with the requirements of OMB Circular A-21, to support
payroll charges to the NSF award.
The International Computer Science Institute’s response, dated January 19, 2012, agreed with the
conclusions of the findings and agreed to resolve the questioned costs. The International
Computer Science Institute’s response is described after the findings and recommendations and
is included in its entirely in Appendix B.

Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing copies of this memorandum to the Assistant Director, Directorate for
Computer and Information Science and Engineering within the Office of the Assistant Director;
the Division Director of Computer and Network Systems (CISE/CNS), and, the Division
Director of Information and Intelligent Systems (CISE/IIS). The responsibility for audit
resolution rests with the Division of Institution and Award Support, Cost Analysis and Audit
Resolution Branch (CAAR). Accordingly, we ask that no action be taken concerning the report’s
findings without first consulting CAAR at 703-292-8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed McBride Lock and Associates approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with McBride Lock and Associates and NSF officials, as
          necessary, to discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by McBride Lock and Associates to ensure compliance
          with Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

McBride Lock and Associates is responsible for the attached auditor’s report on the International
Computer Science Institute and the conclusions expressed in the report. We do not express any
opinion on the Schedules of Award Costs, internal control, or conclusions on compliance with
laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996.

Attachment

cc:       Farnam Jahanian, Assistant Director, CISE/OAD
          Keith Marzullo, Division Director, CISE/CNS
          Howard Wactlar, Division Director, CISE/IIS



                                                 2
            The International Computer
                  Science Institute
             1947 Center Street, Suite 600
                 Berkeley, CA 94704

           Independent Auditors' Reports on
           National Science Foundation
           Award Numbers IIS-0905647,
             CNS-0433702, CNS-0855125,
            IIS-0819984, and CNS-0722035


For the period from October 1, 2004 to December 31, 2010




                                               McBride, Lock & Associates
                                                         1111 Main Street
                                                                 Suite 900
                                                   Kansas City, MO 64105
                                    EXECUTIVE SUMMARY

The National Science Foundation (NSF), Office of Inspector General (OIG), engaged McBride,
Lock & Associates to perform an audit on $5,274,875 in costs claimed and$715,537 in cost sharing
claimed as reported on the December 31, 2010 Federal Financial Report (FFR) and cost sharing
reports submitted to NSF by the International Computer Science Institute (ICSI) for NSF award
numbers IIS-0905647, CNS-0433702, CNS-0855125, IIS-0819984, and CNS-0722035.

The International Computer Science Institute (ICSI) was selected for audit because of its potential
weaknesses in internal control over its financial and grant administration of its NSF awards as
indicated by findings in NSF’s Booz Allen 2008 Desk Review. These findings were also referred to
in ICSI’s OMB Circular A-133 fiscal year 2008 Single Audit Report. ICSI also, as a recipient under
the American Reinvestment Recovery Act of 2009 (ARRA) has additional requirements to account
for, segregate and report its ARRA expenditures and activity.

The objectives of our audit engagement were to determine whether costs and cost share claimed by
ICSI and its subgrantees for the NSF award audited appear fairly stated in the Schedule of Award
Costs (Schedules A-1 to A-5) and to identify weaknesses in ICSI’s internal control over financial
reporting that could have a direct and material effect on ICSI’s ability to properly administer,
account for, and monitor its NSF awards. In addition, we were to determine and report whether ICSI
provides accurate and timely ARRA quarterly reporting under ARRA for NSF Awards CNS-
0855125 and IIS-0905647, determine whether ICSI adequately monitors its subgrantees, and ensure
that previously identified recommendations identified in the NSF-OIG desk review conducted in
2008 have been satisfactorily addressed and implemented.

Except for $451,189 in questioned NSF-funded costs, we determined that the costs and cost share
claimed by ICSI for the NSF award appear fairly stated and are allowable, allocable, and reasonable.
Specifically, we questioned $124,827 of claimed payroll, fringe benefit and indirect costs because
the costs claimed were not adequately supported by timely certified effort reports and other payroll-
related issues. We questioned $6,638 in travel costs because the costs represented air travel on non-
US flag carriers which were therefore unallowable.

We questioned subaward costs claimed of $319,724 because such costs represented payroll costs
claimed without providing adequate detail to allow the Principal Investigator (PI) to adequately
evaluate and monitor the reasonableness of the expenses claimed. Further, the subawardee had not
implemented a labor effort certification process, compliant with the requirements of OMB Circular
A-21, to support payroll charges to the NSF award.

We noted that, of the four findings and recommendations made in NSF’s 2008 program site visit, all
recommendations were substantially implemented and similar deficiencies were not identified during
the current audit. Additionally, our procedures indicated that ICSI had properly segregated in its
accounting system the NSF ARRA funds awarded for CNS-0855125 and IIS-0905647 and submitted
accurate and timely quarterly reports.

We cited three compliance and internal control deficiencies in ICSI’s financial management practice
that contributed to these questioned costs and that, if not corrected, could impact current and future
NSF awards. Specifically:



                                                 3
•   ICSI does not have policies and procedures to ensure adequate fiscal monitoring of subaward
    costs charged to Federal awards. Specifically, during the award period the Institute did not have
    a documented plan for monitoring subawardees, and the PI on NSF award IIS-0819984 stated
    that he does not actively monitor subawardee billings. We observed that billings from a
    significant subawardee did not identify the faculty, staff or students whose time was being billed.
    We also identified payroll costs that were not properly certified in compliance with NSF and
    OMB requirements.

•   ICSI policies do not establish criteria for assessing the timeliness of effort reporting certification.
    Our audit procedures identified effort reports that were not dated, not signed, not reviewed by
    someone with direct knowledge of the work performed, or reviewed and dated but not on a
    timely basis. We also identified an effort report that omitted compensation at UC-Berkeley in
    violation of laws, regulations, and ICSI’s agreement with UC-Berkeley.

•   ICSI’s formal written policies, procedures and training programs do not adequately address
    foreign travel as appropriate to promote compliance with award terms and federal regulations.
    Periodic training in the areas of research award administration and federal requirements is
    provided, however, such training has been insufficient to ensure that PIs responsible for the
    administration of federal awards and other affected by the regulations are aware of the content
    and significance of restrictions on foreign travel.

These noncompliance and internal control weaknesses could have a significant impact on the
Institute’s ability to record, process, summarize and report financial data, and effectively and
efficiently administer its NSF funds in a manner that is consistent with Federal and NSF
requirements. If ICSI fails to address these compliance and internal control weaknesses, improper
costs may continue to be charged on these awards, the other existing $12.4 million of NSF awards,
and on future NSF awards.

To address these compliance and internal control deficiencies, we recommend that NSF’s Director of
the Division of Institution and Award Support (DIAS) address and resolve the following
recommendations made to ICSI to: (1) establish risk-based subawardee evaluation and monitoring
procedures for ICSI’s NSF-sponsored programs; require and train PIs to thoroughly review
subawardee claims for reasonableness, allowability and consistency with the approved budget;
resolve unsupported subawardee claims made on the NSF awards since inception; (2) develop and
implement a policy mandating the timely certification and review of labor effort to support payroll
costs claimed on Federal awards, and require PIs to certify at least annually their status with respect
to providing services to any other institution or entity, and specifically including UC-Berkeley; and,
(3) develop and implement written policies and procedures to address subaward management, effort
reporting and travel restrictions, and implement methods to ensure adherence to the approved
policies and procedures to ensure compliance with Federal requirements.

ICSI concurred with the findings and stated that it was implementing expanded and improved
policies and procedures with respect to subawardee evaluation, acceptance and monitoring,
including instituting the dual review of subawardee billings and providing additional training to
appropriate ICSI personnel. Also, ICSI agreed to implement policies addressing the timely review
and certification of effort reports and timesheets, develop procedures requiring personnel to disclose
dual appointments with other institutions, expand its Accounting Policies Manual to discuss
restrictions on foreign travel, and ensure ICSI personnel receive training in these areas.


                                                    4
ICSI’s response is included in its entirely as Appendix B. ICSI’s response to each finding is
summarized in the text of the report following the auditors’ recommendations. Our comments on
ICSI’s responses follow each response.

Our review of the previously identified audit recommendations revealed that most were adequately
addressed. See Appendix A to this report for details.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have been
satisfactorily implemented.

For a complete discussion of these findings, refer to the Report on Internal Control Over Financial
Reporting and on Compliance and Other Matters Based on an Audit of Financial Schedules Performed
in Accordance with Government Auditing Standards.




                                                5
                                      Table of Contents
                                                                                Page
Executive Summary                                                                3
Table of Contents                                                                6
Introduction:
Background                                                                       8
Audit Objectives, Scope and Methodology                                          10
Auditors’ Reports, Findings and Recommendations:
Independent Auditors’ Report on Financial Schedules                              11
Report on Internal Control over Financial Reporting and on Compliance
    and Other Matters Based on an Audit of Financial Schedules Performed         13
    in Accordance with Government Auditing Standards

Financial Schedules and Supplemental Information:
Schedule A-1 – Schedule of Award Costs (Award No. CNS-0433702)                   25
Schedule A-2 – Schedule of Award Costs (Award No. IIS-0819984)                   26
Schedule A-3 – Schedule of Award Costs (Award No. CNS-0855125)                   27
Schedule A-4 – Schedule of Award Costs (Award No. IIS-0905647)                   28
Schedule A-5 – Schedule of Questioned Costs (Award No. CNS-0722035)              29
Schedule B-1 – Schedule of Questioned Costs (Award No. CNS-0433702)              30
Schedule B-2 – Schedule of Questioned Costs (Award No. IIS-0819984)              31
Schedule B-3 – Schedule of Questioned Costs (Award No. CNS-0855125)              32
Schedule B-4 – Schedule of Questioned Costs (Award No. IIS-0905647)              33
Schedule B-5 – Schedule of Questioned Costs (Award No. CNS-0722035)              34
Schedule C – Summary of Questioned and Unsupported Costs by Finding              35
Notes to the Financial Schedules                                                 36
Appendix A – Status of Prior Review Findings                                     38
Appendix B – Awardee’s Comments to Report                                        40
Appendix C – Exit Conference                                                     44
                                       Acronyms
                  ARRA             American Reinvestment Recovery Act of 2009
                  ICSI             International Computer Science Institute
                  NSF              National Science Foundation
                  OIG              Office of Inspector General
                  OMB              Office of Management and Budget
                  PI               Principal Investigator

                                               6
INTRODUCTION
BACKGROUND

We were engaged to audit the funds awarded by the National Science Foundation to the
International Computer Science Institute (ICSI or Institute) under award numbers, CNS-
0433702, IIS-0819984, CNS-0855125, IIS-0905647 and CNS-0722035, for the period of October 1,
2004 to December 31, 2010. The Institute, as a federal awardee, is required to follow the cost
principles specified in 2 CFR Part 230 (OMB Circular A-122), Cost Principles for Non-Profit
Organizations and the federal administrative requirements contained in 2 CFR Part 215 (OMB
Circular A-110), Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations; and Federal
audit requirements in OMB Circular A-133, Audits of States, Local Governments, and Non-
Profit Organizations.

The Institute is a non-profit corporation located in Berkeley, California. ICSI is a center for research
in computer science and has maintained an affiliation with the University of California at Berkeley
(UC-Berkeley). Several of ICSI’s scientists hold joint faculty appointments at UC-Berkeley,
teaching and supervising students who may pursue doctoral thesis research at ICSI. There are
approximately 80 scientists in residence at ICSI, including principal investigators, postdoctoral
Fellows, visiting researchers, and students. ICSI partners and collaborates with sponsoring partners
from industry, government, and other public and private sector organizations worldwide.

As of December 31 2010, ICSI had 32 active NSF awards totaling over $18.9 million that included
two awards pursuant to the American Reinvestment Recovery Act (ARRA) of 2009 totaling over
$600,000. Four of the 32 active awards were funded at over $1 million each.

The International Computer Science Institute (ICSI) was selected for audit because potential
weaknesses in internal control over financial and grant administration of its NSF awards were
indicated by findings in NSF’s Booz Allen 2008 Desk Review. These findings were also
referred to in ICSI’s OMB Circular A-133 FY 2008 Single Audit Report. ICSI is also a
recipient of federal funds under the American Reinvestment Recovery Act of 2009 (ARRA) and
therefore has additional requirements to account for, segregate and report its ARRA
expenditures and activity.

A description of the five NSF awards audited follows.

Grant Award CNS-0433702, Collaborative Proposal Cybertrust: Center for Internet Epidemiology
and Defenses. The ICSI was awarded approximately $3.7 million effective October 1, 2004 through
March 31, 2012. The award is primarily for salaries, benefits and related indirect costs, and required
$720,000 in cost sharing by ICSI. Cumulative disbursements for award number CNS-0433702
reported to NSF for the audit period were $3,178,289. Cost share claimed totaled $715,537.

Grant Award IIS-0819984, HRI: Perceptually Situated Human-Robot Dialog Models. ICSI was
awarded $830,987 effective July 1, 2008 through July 31, 2012. In addition to salaries, benefits and
related indirect costs, this award includes $407,494 for subcontracts and $81,320 for other direct
costs (primarily participant support costs). Cumulative disbursements for award number IIS-
0819984 reported to NSF for the audit period were $741,597. No cost share was required.


                                                   8
ARRA Award CNS-0855125, II-EN: High Performance Network Monitoring Infrastructure for
Research in a Large Scale Operational Environment. The ICSI was awarded approximately $208,000
effective August 1, 2009 through July 31, 2011. The award is primarily to fund equipment. This
award was funded by the American Reinvestment Recovery Act (ARRA) of 2009. Cumulative
disbursements for award number CNS-0855125 reported to NSF for the audit period were $181,887.
No cost share was required.

ARRA Award IIS-0905647, HCC Medium: Collaborative Research, Computer Vision and Online
Communities, A Symbiosis. The ICSI was awarded $400,000 effective July 1, 2009 through June
30, 2013. The award is primarily for salaries, benefits and related indirect costs. This award was
funded by the American Reinvestment Recovery Act (ARRA) of 2009. Cumulative disbursements
for award number IIS-0905647 reported to NSF for the audit period were $151,461. No cost share
was required.

Grant Award CNS-0722035, NeTS-FIND, Architectural Support for Network Trouble Shooting. The
ICSI was awarded approximately $1.3 million effective September 1, 2007 through August 31,
2011. The award is primarily for salaries, benefits and related indirect costs. Cumulative
disbursements for award number CNS-0722035 reported to NSF for the audit period were
$1,021,641. No cost share was required.




                                                9
AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

At the request of the NSF Office of Inspector General (OIG), McBride, Lock & Associates
conducted an audit of NSF award numbers IIS-0905647, CNS-0433702, CNS-0855125, IIS-
0819984, and CNS-0722035 granted to the Institute.

The objectives of our audit were to:

1. Determine whether ICSI’s system of internal control over administering its NSF awards is
   adequate to account for and ensure compliance with applicable OMB Circular and NSF award
   requirements.

2. Identify and report instances of noncompliance with laws, regulations, and the provisions of the
   award agreement(s) and weaknesses in ICSI’s internal controls over compliance and financial
   reporting that could have a direct and material effect on the Schedules of Award Costs
   (Schedules A-1 to A-5) and ICSI’s ability to properly administer, account for, and manage its
   NSF awards.

3. Determine and report on whether ICSI adequately monitors its sub-awards.

4. Follow-up on recommendations identified in NSF’s 2008 Desk Review to determine if they were
   satisfactorily addressed and implemented.

5. Determine and report on whether ICSI’s Schedules of Award Costs present fairly, in all material
   respects, the costs claimed on the Federal Cash Transactions Reports/Federal Financial Reports
   and cost share in conformity with NSF-OIG’s Financial Audit Guide and the terms and
   conditions of the NSF awards.

6. Determine whether ICSI properly accounts for and segregates its ARRA funded awards from its
   non-ARRA funded awards in its accounting system.

7. Determine whether ICSI provided accurate and timely ARRA quarterly reporting under NSF
   ARRA for NSF Award Nos. CNS-0855125 and IIS-0905647.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in the Government Auditing
Standards (2007 revision) issued by the Comptroller General of the United States, and the guidance
provided in the National Science Foundation OIG Audit Guide, August 2007, as applicable. Those
standards and the National Science Foundation OIG Audit Guide require that we plan and perform
the audit to obtain reasonable assurance about whether the amounts claimed to the National
Science Foundation as presented in the Schedules of Award Costs (Schedules A-1 to A-5), are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the Schedules of Award Costs (Schedules A-1 to A-5). An audit also
includes assessing the accounting principles used and significant estimates made by the International
Computer Science Institute, as well as evaluating the overall financial schedule presentation. We
believe that our audit provides a reasonable basis for our opinions.




                                                 10
           INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES

National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

We have audited the costs claimed by the International Computer Science Institute to the National
Science Foundation (NSF) on the Federal Cash Transactions Reports/Federal Financial Reports
(FCTR/FFRs) for the NSF awards listed below. In addition, we audited the amount of cost sharing
claimed on award number CNS-0433702. The FCTR/FFRs, as presented in the Schedules of
Award Costs (Schedules A-1 through A-5) are the responsibility of the International Computer
Science Institute’s management. Our responsibility is to express an opinion on the Schedules of
Award Costs (Schedules A-1 through A-5) based on our audit.

        Award Number                 Award Period                      Audit Period
       CNS-0433702                10/01/04 to 03/31/12             10/01/04 to 12/31/10
       IIS-0819984                07/01/08 to 07/31/12             07/01/08 to 12/31/10
       CNS-0855125                08/01/09 to 07/31/11             08/01/09 to 12/31/10
       IIS-0905647                07/01/09 to 06/30/13             07/01/09 to 12/31/10
       CNS-0722035                09/01/07 to 08/31/11             09/01/07 to 12/31/10

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards (2007 revision) issued by the Comptroller General of the United States, and the
guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. Those standards and the National Science Foundation OIG Audit Guide require that
we plan and perform the audit to obtain reasonable assurance about whether the amounts claimed
to the National Science Foundation as presented in the Schedules of Award Costs
(Schedules A-1 through A-5) are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the Schedules
of Award Costs (Schedules A-1 through A-5). An audit also includes assessing the accounting
principles used and the significant estimates made by the International Computer Science
Institute’s management, as well as evaluating the overall financial schedule presentation. We
believe that our audit provides a reasonable basis for our opinions.




                                               11
The Schedules of Questioned Costs (Schedules B-1 through B-5) explain the $451,189 of claimed
NSF-funded costs (8.6 percent of total claimed costs) that we questioned for allowability under the
NSF award agreements. These questioned costs represent unallowable, unsupported, unallocable and
unreasonable payments to ICSI’s subawardees. Questioned costs are (1) costs for which there is
documentation that the recorded costs were expended in violation of the laws, regulations or specific
award conditions, (2) costs that require additional support by the awardee or (3) costs that require
interpretation of allowability by NSF’s Division of Institution and Award Support. The final
determination as to whether such costs are allowable will be made by NSF. The ultimate outcome of
this determination cannot presently be determined. Accordingly, no adjustment has been made to
costs claimed for any potential disallowance by NSF.

In our opinion, except for the $451,189 of questioned NSF-funded costs, the Schedules of Award
Costs (Schedules A-1 through A-5) referred to above present fairly, in all material respects, the
costs claimed on the FCTR/FFRs and cost sharing claimed, for the period of October 1, 2004
through December 31, 2010, in conformity with the provisions of the National Science
Foundation OIG Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF award
and on the basis of accounting described in the Notes to the Financial Schedules, which is a
comprehensive basis of accounting other than generally accepted accounting principles. These
schedules are not intended to be a complete presentation of financial position of ICSI in
conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and the provisions of the National
Science Foundation OIG Audit Guide, we have also issued our report dated January 10, 2012,
on our consideration of ICSI’s internal control over financial reporting and our tests of ICSI’s
compliance with certain provisions of laws, regulations, and NSF award terms and conditions and
other matters. The purpose of that report is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide an
opinion on internal control over financial reporting or on compliance. That report is an integral part
of an audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.

Our audit was conducted for the purpose of forming an opinion on the Schedules of Award Costs
(Schedules A-1 through A-5). The accompanying Schedules of Questioned Costs (Schedules B-1
through B-5 and Summary of Questioned and Unsupported Costs by Finding (Schedule C) are
presented for purposes of additional analysis, as required by the National Science Foundation OIG
Audit Guide. Such information has been subjected to the auditing procedures applied in the audit of
the Schedules of Award Costs and, in our opinion, is fairly stated, in all material respects, in relation
to the Schedules of Award Costs.

This report is intended solely for the information and use of the International Computer Science
Institute’s management, the National Science Foundation, the Institute’s cognizant federal audit
agency, the Office of Management and Budget, and the Congress of the United States and is not
intended to be, and should not be used by anyone other than these specified parties.



McBride, Lock & Associates
January 10, 2012

                                                   12
                          REPORT ON
INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE AND
     OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

We have audited the costs claimed as presented in the Schedules of Award Costs
(Schedules A-1 through A-5), which summarize the financial reports submitted by the
International Computer Science Institute to the National Science Foundation (NSF), for the
awards and periods listed below and the claimed cost sharing for award number CNS-0433702,
and have issued our report thereon dated January 10, 2012.

        Award Number                  Award Period                        Audit Period
       CNS-0433702                 10/01/04 to 03/31/12               10/01/04 to 12/31/10
       IIS-0819984                 07/01/08 to 07/31/12               07/01/08 to 12/31/10
       CNS-0855125                 08/01/09 to 07/31/11               08/01/09 to 12/31/10
       IIS-0905647                 07/01/09 to 06/30/13               07/01/09 to 12/31/10
       CNS-0722035                 09/01/07 to 08/31/11               09/01/07 to 12/31/10

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 through
A-5 in accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards (2007
Revision), issued by the Comptroller General of the United States; and the guidance provided in the
National Science Foundation OIG Audit Guide (August 2007), as applicable.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedules of Award Costs (Schedule A-1 through A-
5) for the period October 1, 2004 to December 31, 2010, we considered the International
Computer Science Institute’s internal control over financial reporting as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial schedules, but not for
the purpose of expressing an opinion on the effectiveness of the International Computer Science
Institute’s internal control over financial reporting. Accordingly, we do not express an opinion on
the effectiveness of the International Computer Science Institute’s internal control over financial
reporting.

                                                 13
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described
in the first paragraph of this section and was not designed to identify all deficiencies in internal
control over financial reporting that might be deficiencies, significant deficiencies or material
weaknesses. We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting, as discussed in Finding Nos. 1, 2 and 3 in the Schedule of
Findings and Recommendations below, that we consider to be significant deficiencies in internal
control over financial reporting. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance.


COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether the International Computer
Science Institute’s financial schedules are free of material misstatement, we performed tests of the
Institute's compliance with certain provisions of applicable laws, regulations, and NSF award
terms and conditions, noncompliance with which could have a direct and material effect on the
determination of financial schedule amounts. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an
opinion. The results of our tests of compliance disclosed certain instances of noncompliance
that are required to be reported under Government Auditing Standards and the National
Science Foundation OIG Audit Guide and are described as Finding Nos. 1, 2 and 3 in the Schedule
of Findings and Recommendations below.

The International Computer Science Institute responses to the findings identified in our audit are
described after each finding and recommendation in the accompanying Schedule of Findings and
Responses presented below and are included in their entirety in Appendix B. We did not audit
the International Computer Science Institute’s response and, accordingly, we express no opinion
on it.

SCHEDULE OF FINDINGS AND RECOMMENDATIONS

Finding No. 1: Lack of Adequate Fiscal Monitoring of Subawardee

Beginning in September 2008, Stanford University was funded as a subawardee under NSF award
IIS-0819984, HRI: Perceptually Situated Human-Robot Dialog Models. For the period from
inception through December 31, 2010, Stanford billed award costs of $333,560, or 45%, of the
$741,597 award dollars expended. As an organization, ICSI has very few subawardees, although
they are in the process of finalizing agreements for two additional subawardees.



                                                  14
During the period of the subaward to Stanford University and at the time of our audit, ICSI did not
have policies and procedures to ensure adequate fiscal monitoring of subaward costs or subawardee
cost share charged to the Federal award. The PI on NSF award IIS-0819984 stated that he does not
actively monitor subawardee billings, and we observed that billings from Stanford University do not
identify the faculty, staff or students whose time was being billed. We also identified payroll costs
that were not properly certified in compliance with NSF and OMB requirements.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations (OMB Circular A-110) requires prime
recipients of sponsored awards to establish a system of internal controls to ensure that subawardees
use federal funds in accordance with laws, regulations and contract/grant agreements. 2 CFR 215,
Subpart C, §215.51, Monitoring and Reporting Program Performance, states that:

       “(a) Recipients are responsible for managing and monitoring each project, program,
       subaward, function or activity supported by the award. Recipients shall monitor
       subawards to ensure subawardees have met the audit requirements as delineated in
       Section .26.”

Further, OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations,
Subpart D 400 (d) prescribes certain procedures that a pass-through entity (the Institute) must
perform with respect to its subawardees, including the following:

       “(3) Monitor the activities of subrecipients as necessary to ensure that Federal awards
       are used for authorized purposes in compliance with laws, regulations, and the
       provisions of contracts or grant agreements and that performance goals are achieved.”

The NSF Grant Policy Manual, Section 301, also specifies that grantees are responsible for
managing and monitoring subaward performance and exercising prudent management of all
expenditures and actions affecting the grant.

The Institute does not have policies or procedures for subawardee selection and acceptance to ensure
that subawardees selected have adequate financial grant management practices. The ICSI Chief
Financial Officer stated that such documentation will be developed and implemented for use in the
future. ICSI represented that it had obtained a copy of the Stanford OMB Circular A-133 audit report
at the time the subaward was initiated, and reviewed for the existence of findings which could
impact the approval of the institution as a subawardee.
Monitoring of the subawardee on NSF IIS-0819984 was left to the PI, who approved the Stanford
University billings. However, the PI on NSF award IIS-0819984 stated that he does not actively
monitor subawardee billings or the detail behind them because he believes subawardee PIs should be
left to accomplish their portion of the project as they see fit, and, accordingly, he monitors program
results rather than the specifics of the costs incurred.

Stanford University billings do not identify the faculty, staff or students whose time is being billed.
The lack of detail for award charges hinders the ability of the PI or other personnel to evaluate the
reasonableness of those charges in relation to the subaward budget and progress on the award.




                                                  15
In order to determine whose time at Stanford University was charged to the NSF award and evaluate
the propriety of those charges, we requested that ICSI obtain from Stanford University detailed
transactional information for all subawardee billings. From the Monthly Transaction Reports
subsequently furnished by Stanford University, we selected specific payroll transactions charged to
the award and asked ICSI to request the certified labor effort reports that should support these
charges.

Labor effort reports illustrate the total of all compensated labor effort for each employee charged to a
federal award, and the percent of effort allocated to each award or other activity. Effort reporting is
required for universities receiving federal funding, including Stanford University, by OMB Circular
A-21, Principles for Determining Costs Applicable to Grants, Contracts, and Other Agreements with
Educational Institutions, which outlines the regulations governing time and effort reporting and the
verification of salary distributions. Specifically, OMB Circular A-21, Section J10.b(2) requires:

1. A payroll system that accounts for and reports 100 percent of employees’ activities
   (instructional, research, administrative, and other institutional), including those not charged to
   federal awards.

2. A payroll system that allows confirmation of activity allocable to each sponsored agreement and
   each of the categories of activity needed to identify F&A costs and the functions to which they
   are allocable.

3. A payroll system that provides for after-the-fact confirmation of employee activity by a
   responsible person with “suitable means of verification that the work was performed”.

We were informed that Stanford University does not participate in effort reporting. The Director of
Stanford University’s Post Award Research Administration division stated, in an email transmission
to the ICSI Chief Financial Officer that “we do not do effort reporting but we do certify all
expenditures quarterly.” However, these quarterly expenditure certifications are merely certifications
regarding the accumulated costs charged, on a project by project basis, and do not purport to include
100% of all compensation for those individuals whose labor is proportionally charged to the project,
nor do they include both sponsored and all other activities on an integrated basis as required by
OMB Circular A-21. As the Director stated, at Stanford University they “do not do effort reporting”.

As set forth in its policy entitled “Stewardship and Compliance for Stanford PIs, Stanford University
views the above certification as the principal evidence that labor effort was charged appropriately.
This policy states:

   “The Principal Investigator’s certification of project expenditures is a key piece of
   documentation supporting the allowability, allocability and reasonableness of project
   costs. Particularly for salary costs, this certification is the primary evidence that the
   salary being charged was supported by a corresponding degree of effort devoted to the
   project.”

The quarterly expenditure certifications, to the extent that they are intended to represent effort
reporting certifications in compliance with OMB Circular A-21, are incomplete because
only the specific award-funded activities are included. All other employee activities, whether funded
by another award or by the University, are not included as required by federal regulations. As
previously noted, OMB Circular A-21 requires that effort reports “reasonably reflect the activity for

                                                  16
which the employee is compensated by the institution; and encompass both sponsored and all other
activities on an integrated basis. . .”

The absence of labor effort reports and the reliance on quarterly expenditure certifications is
problematic because errors that may occur in current quarter and prior quarter(s) labor distributions
are presented on the certified quarterly expenditure reports without correction. We identified errors
in the last quarter of calendar year 2009 and the first quarter of calendar year 2010, and noted that
the PI had incorrectly certified the Quarter 4 2009 and Quarter 1 2010 reports with a statement
reading “salaries and wages charged to this project are appropriate in relation to work performed on
this project.”

In fact, the Quarter 4 2009 report omitted 2 months of charges for the only scientist on the project
other than the PI. These costs, amounting to               were subsequently charged to the ICSI
subaward although the costs were omitted from the quarterly report certified as correct by the PI. In
the following quarter these costs were included as costs of Quarter 1 of 2010, even though the
detailed supporting information discloses that those costs do not pertain to Quarter 1, the quarter in
which they were certified as having occurred. Accordingly, the veracity and reliability of the costs
certified on the Stanford University Quarterly Expenditure Reports is not substantiated.

Based on the absence of labor effort certifications, the lack of approval by the federal cognizant
agency to forego labor effort certifications and inaccuracies noted in the certified quarterly
expenditure reports, Stanford University’s payroll distribution system is not in compliance with
federal requirements and does not adequately support the payroll and related indirect costs charged
to NSF award IIS-0819984. Subawardee billings for payroll and related indirect costs amounted to
$319,724 during the audit period, and these costs have been questioned.

Lack of adequate subaward management procedures can allow noncompliance with federal and NSF
requirements to remain undetected. Incomplete or insufficiently detailed subawardee billings may
preclude an effective evaluation of the reasonableness of costs billed to federal awards, and may
allow such costs to be billed without proper substantiation.

This area of subawardee noncompliance with federal labor effort reporting requirements was not
detected by ICSI through its subawardee monitoring process because these processes do not include
requesting effort reports or the details supporting labor charges to subawards.

Recommendation No. 1

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
address and resolve the following recommendation that ICSI:

a. Develop formal and comprehensive risk-based policies or procedures for subawardee evaluation
   and acceptance to ensure that subawardees selected have adequate financial grant management
   practices.




                                                 17
b. Develop subawardee fiscal monitoring procedures to ensure that subaward costs are reasonable,
   allowable, and allocable to the NSF award. These procedures should require that ICSI:

    •   Obtain certification that required A-133 audits and audits by other regulatory agencies,
        if any, have or have not been conducted,
    •   Obtain and review all audit reports for pertinent findings and ascertain with
        subawardee that timely and appropriate corrective action was taken if findings were
        indicated, and evaluate impact of audit findings on ICSI,
    •   If subawardee is required to but fails to have an A-133 audit performed or does not
        correct the findings, take appropriate sanction action,
    •   Assess the effect of subawardee actions on the Institute’s ability to comply with
        federal laws and regulations, and
    •   Document the results of the assessment.

c. Ensure that the procedures include clearly defined monitoring responsibilities from pre-award
   through the award completion stages, including analysis of subawardee billing statements, desk
   reviews, site visits, and other monitoring steps, as necessary.

d. Provide training to administrative personnel and PIs in the policies and procedures necessary for
   adequate monitoring of subawardees.

e. Resolve the $319,724 of unsupported labor costs charged to NSF award IIS-0819984 amounting
   to          in salaries and wages,       in employee benefits and          in indirect costs.

f. Submit documentation in sufficient detail to demonstrate that corrective action taken or proposed
   is sufficient to resolve the control deficiencies noted.

Awardee's Comments

ICSI concurs with this finding and agrees that monitoring of subawards is important and necessary.
Beginning in late May’2011 ICSI has a dual review of subaward invoices. Accounting and PI review
and sign off on the invoices. In addition, ICSI will do the following:

•   Develop formal and comprehensive risk-based policies or procedures for subawardee evaluation
    and acceptance to ensure that subawardees selected have adequate financial grant management
    practices.

•   Prepare written policy and procedures for obtaining and reviewing subawardee A-133 audits.

•   Ensure that the procedures include clearly defined monitoring responsibilities from pre-award
    through the award completion stages, including analysis of subawardee billing statements, desk
    reviews, site visits, and other monitoring steps, as necessary.

•   Provide training to administrative personnel and PIs in the policies and procedures necessary for
    adequate monitoring of subawardees.

•   Resolve the $319,724 of unsupported labor costs charged to NSF award IIS-0819984 amounting
    to $160,156 in salaries and wages, $42,302 in employee benefits and $117,266 in indirect costs.


                                                  18
•   Submit documentation in sufficient detail to demonstrate that corrective action taken or proposed
    is sufficient to resolve the control deficiencies noted.

Auditors' Response

Each of ICSI’s comments is responsive to the finding and recommendation.

Finding 2 – Inadequate Effort Reporting

The ICSI policies and procedures regarding effort reporting have been expanded and strengthened in
recent years. However, the periods of the NSF awards and, accordingly, our audit tests extend to
earlier years. Audit testwork identified effort reports representing the early years of the awards that
were not dated, not signed, not reviewed by someone with direct knowledge of the work performed,
or reviewed and dated but not on a timely basis. Our audit also disclosed that existing ICSI policy
does not establish criteria for assessing the timeliness of effort reporting certification. We also
identified an effort report that omitted compensation for an ICSI PI who was also employed and paid
by UC-Berkeley, in violation of laws, regulations, and ICSI’s agreement with UC-Berkeley. As a
result, we questioned a total of $124,827 in payroll costs.

To be eligible for federal reimbursement personnel costs of nonprofit organizations are subject to the
provisions of 2 CFR, Part 230 (OMB Circular A-122). Attachment B, Section 8.m.(1) of this circular
states:

    (1) Charges to awards for salaries and wages, whether treated as direct costs or indirect costs,
    will be based on documented payrolls approved by a responsible official(s) of the
    organization. The distribution of salaries and wages to awards must be supported by
    personnel activity reports, as prescribed in subparagraph (2), except when a substitute system
    has been approved in writing by the cognizant agency.

2 CFR, Part 230 (OMB Circular A-122), Attachment B, Section 8.m.(2) discusses effort reporting
and notes that:

    (c) The reports must be signed by the individual employee, or by a responsible supervisory
    official having first-hand knowledge of the activities performed by the employee, that the
    distribution of activity represents a reasonable estimate of the actual work performed by the
    employee during the periods covered by the reports.

    (d) The reports must be prepared at least monthly and must coincide with one or more pay
    periods.

The Institute has no specific time frame in which the PI or group leader must review the effort report
and certify it. Of the 28 effort reports selected for testing, 1 was not dated, 1 was not dated and also
not signed, 5 were dated more than 2 months beyond the date of the effort report, and 1 was not
signed by the PI or by someone with direct knowledge of the work performed. The latter condition
was due to the Chief Operations Officer signing effort reports when the PI was not available. The
reports were discussed with the PI and transmitted to him for viewing electronically. As the PI
reviewed and agreed with the certifications and authorized the signing of the effort reports, we are
not questioning the payroll-related costs associated with this practice. We were informed that this
practice has ended, and this statement is consistent with the results of our audit tests.

                                                  19
With respect to the dating of effort reports, we expanded our audit procedures by viewing several
additional effort reports beyond those included in our sample, and we found that many such reports
had not been dated. These effort reports indicate untimely review and approval which provides a less
reliable certification. We also noted an instance in which 4 months of payroll charges for one
employee was transferred to an award because the charges were improper and the related labor
report had not been reviewed on a timely basis. The sampled effort reports with exceptions
amounted to $56,276 of charges to NSF awards, or 39% of the $142,475 tested. Fringe benefit and
indirect costs associated with the $56,276 of salaries amounted to $11,887 and $54,190, respectively,
for a total of $122,353 in questioned payroll-related costs.

Personnel at ICSI who are partially funded by contracts, as distinguished from federal awards,
prepare and submit timesheets in lieu of effort reports. The examination of one PI’s timesheet
revealed that the PI charges and certifies his time to within 1/100th of an hour, with the hours
certified representing the exact amount that would be calculated by allocating the total initial
estimate of labor effort for the payroll period to each day within the reporting period. For example,
his July 2010 timesheet reported that the PI spent and charged .46 of an hour each day of the month
to NSF award IIS-0819984, and 1.07 hours each day to NSF award IIS-0905647. The recording of
time charges in this manner calls into question the veracity of the report, particularly considering that
the overall timesheet was in error and, in fact, the hours recorded totaled 8 hours less than noted by
the PI. This amount was detected by ICSI administrative personnel and was initially charged to
vacation and subsequently moved to another project. The inaccurate timesheet did not impact the
final resulting charges to NSF awards.

This same PI stated to the auditors that he devoted approximately 2 hours a day plus preparation
time in connection with unpaid teaching responsibilities at UC-Berkeley. This effort is not reported
on the PI’s time sheet. Upon inquiry, the PI informed the auditors that he was not compensated for
his services to UC-Berkeley and had no compensation for services outside of ICSI.

Upon further investigation with UC-Berkeley, we learned that the same PI was compensated for
efforts at UC-Berkeley during calendar year 2009 in the amount of             . Failure to include UC-
Berkeley effort on ICSI effort reports (or time sheets which serve as effort reports), is a violation of
federal regulations. It is also a violation of the Agreement of Affiliation Between ICSI and UC-
Berkeley which requires that dual appointments at both ICSI and UC-Berkeley be subjected to a
formalized process of disclosure between the parties and effort reporting. The effort reporting states
that the “Combined Professional Effort in any period of time, as reported, cannot exceed 100%”. By
reporting 100% of his effort as ICSI activities, and excluding his UC-Berkeley activities, the PI is in
violation of this requirement.

The effect of the omission of activities and related payroll charges on effort reports is to overstate
the percent of effort devoted to the reported activities. The omitted compensation by the PI who
failed to report UC-Berkeley compensation represents approximately 16% of the PI’s total
compensation during calendar year 2009. Accordingly, we are questioning 16% of the PI’s charges
to NSF awards, amounting to $2,474, of which $878 were charges to award IIS-0819984 and $1,596
were charges to NSF award IIS-0905647. The exceptions due to delinquent or improperly certified
effort reports amounted to $122,353 of charges to NSF awards. As a result of these two matters, we
are questioning $124,827 of payroll-related charges to Federal awards.




                                                   20
Timely certifications of reports that include all 100% of employees’ activities are mandated by
applicable federal regulations and are important to ensure the reliability of the documentation
supporting payroll and related indirect cost charges to federal awards.

ICSI’s efforts to enhance its policies and procedures have been largely effective in minimizing the
areas of potential noncompliance with federal requirements. Focusing efforts and refining and
expanding its policies and procedures in the key area of effort reporting should reduce the risk of
noncompliance relative to this function.

Recommendation No. 2

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
address and resolve the following recommendation that ICSI:

a. Develop, adopt and implement a policy providing for the timely review and certification of effort
   reports and timesheets.

b. Develop procedures to require that personnel disclose dual appointments with other institutions,
   including the level of committed effort and related compensation,

c. Provide training to ICSI personnel with respect to the proper and accurate reporting of time,
   including time expended on UC-Berkeley commitments.

d. Submit documentation in sufficient detail to demonstrate that corrective action taken or proposed
   is sufficient to resolve the control deficiencies noted.

Awardee's Comments


ICSI agrees with this finding and will do the following:

•   Develop, adopt and implement a policy providing for the timely review and certification of effort
    reports and timesheets.

•   Develop procedures to require that personnel disclose dual appointments with other institutions,
    including the level of committed effort and related compensation.

•   Provide training to ICSI personnel with respect to the proper and accurate reporting of time,
    including time expended on UC-Berkeley commitments.

•   Submit documentation in sufficient detail to demonstrate that corrective action taken or proposed
    is sufficient to resolve the control deficiencies noted.

Auditors' Response

Each of ICSI’s comments is responsive to the finding and recommendation.




                                                 21
Finding 3 – Inadequate Policies, Procedures and Training of Personnel Responsible for
Compliance with Foreign Travel Requirements.

The Institute’s formal written policies, procedures and training programs do not adequately address
federal requirements associated with foreign travel, as appropriate to promote compliance with
award terms and federal regulations. Periodic training in the areas of research award administration
and federal requirements is provided, however, such training has been insufficient to ensure that PIs
and other affected personnel are aware of the content and significance of applicable compliance
requirements pertaining to foreign travel.

OMB Circular A-110, Subpart C, Section .21(b), paragraph (6) requires awardees to maintain
“written procedures for determining the reasonableness, allocability and allowability of costs in
accordance with the provisions of the applicable Federal cost principles and the terms and conditions
of the award.”

The NSF’s Award and Administration Guide states that “Grantees should ensure that costs claimed
under NSF grants are necessary, reasonable, allocable, and allowable under the applicable cost
principles, NSF policy, and/or the program solicitation.”

This audit identified exceptions to certain NSF and federal requirements in the area of foreign travel.
ICSI representatives, upon being informed of the exceptions, have agreed to promptly implement
corrective action. This action should include new or expanded policies, procedures and training to
include the subject of foreign travel.

The ICSI policies and procedures do not address the federal requirements pertaining to flying United
States air carriers whenever practical. Federal regulations, specifically 49 U.S.C. 40118, commonly
referred to as the ‘‘Fly America Act,’’ require personnel to use U.S. flag air carrier service for all air
travel funded by the U.S. Government, with certain exceptions. Existing ICSI documented policies
do not refer to this regulation and, during our testwork, we identified 2 trips, out of 26 travel expense
charges, that included foreign travel on non-U.S. flag air carriers. In both cases, the travelers flew on
Air New Zealand which is not a US flag carrier. We were informed by the ICSI Chief Financial
Officer that the use of non-U.S. flag air carriers is not standard protocol and is not an accepted
practice at ICSI. She advised us that expense reports have now been revised to highlight the
requirements with respect to the use of U.S. flag air carriers. The Chief Financial Officer also stated
that the two employees involved would be contacted, as would the staff that approved this travel, to
ensure that further violations of the Fly America Act would not occur. Travel charges representing
flights on non-U.S. flag air carriers amounted to $6,638 or 15% of the total dollar amount tested and
these costs have been questioned.

Policies and procedures that promote compliance with laws, regulations, grantor requirements and
institutional goals, when coupled with adequate training of personnel affected by them, provides
assurance to funding agencies and management alike of effective, compliant fiscal management.

ICSI has developed and adopted a broad set of accounting and financial management policies and
procedures which are codified in its Accounting Policies Manual. Expanding this manual to include
the area of foreign travel will assist ICSI in its efforts to ensure compliance with federal laws and
regulations.


                                                   22
Recommendation No. 3

We recommend that NSF’s Director of the Division of Institution and Award Support address and
resolve the following recommendation that ICSI:

a . Develop and implement written policies and procedures to address travel restrictions. While
    policy statements may be brief, procedural guidance should be sufficient to allow ICSI to meet
    the NSF requirement that “Grantees should ensure that costs claimed under NSF grants are
    necessary, reasonable, allocable, and allowable under the applicable cost principles, NSF policy,
    and/or the program solicitation.”

b . Develop and implement an effective mechanism to communicate the policy and procedural
    changes to all affected ICSI staff and provide training as considered appropriate.

c . Submit documentation in sufficient detail to demonstrate that corrective action taken or proposed
    is sufficient to resolve the control deficiencies noted.

Awardee's Comments

ICSI agrees with the audit findings and has already implemented changes indicated in the auditors’
report. Our travel expense forms now have travel “tips” included on the back of the form as well as
our travel policy on the front of the expense report form. Discussions were held with all of the PI’s
regarding the “Fly America Act”. Additionally, ICSI will also

•   Hold mandatory training sessions on travel policy and procedures.
•   Expand the Accounting Policies Manual to include additional information on foreign travel.
•   Submit documentation in sufficient detail to demonstrate that corrective action taken or proposed
    is sufficient to resolve the control deficiencies noted.

Auditor’s Response

Each of ICSI’s comments is responsive to the finding and recommendation.

These findings should not be closed until NSF determines that the recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

This report is intended solely for the information and use of the International Computer Science
Institute’s management, NSF, the Institute’s cognizant Federal audit agency, the Office of
Management and Budget, and the Congress of the United States, and is not intended to be and
should not be used by anyone other than these specified parties.



McBride, Lock & Associates
January 10, 2012




                                                 23
FINANCIAL SCHEDULES AND SUPPLEMENTAL INFORMATION
                                                                                             Schedule A-1
                          The International Computer Science Institute
                          National Science Foundation Award No. CNS-0433702
                                       Schedule of Award Costs
                           Award Period: October 1, 2004 – March 31, 2012
                          Audit Period: October 1, 2004 – December 31, 2010
                                                Interim

                                    (A)               (B)                            Claimed         Questioned
        Cost Category             Approved          Claimed                         Costs After        Costs
                                                                    Adjustments
                                   Budget            Costs                          Adjustments     Schedule B-1

Direct Costs:
 Salaries and wages           $     1,473,363   $     1,295,005     $       -       $   1,295,005   $    45,093
 Fringe benefits                      326,101           277,738                 -         277,738         9,650
 Equipment                            108,297            99,347                 -          99,347             -
 Travel                               113,500           100,551                 -         100,551         3,472
 Participant support                        -                 -                 -               -             -
                                                                                                -
Other direct costs:                                                                             -             -
 Materials and supplies                    -                  680               -             680             -
 Publication costs                         -                    -               -               -             -
 Consultant services                       -                    -               -               -             -
 Computer services                         -                    -               -               -             -
 Subcontracts                              -                    -               -               -             -
 Other                               152,861               54,626               -          54,626             -
Total Direct Costs                  2,174,122         1,827,947                 -       1,827,947        58,215
Indirect Costs
Total                         $


Cost sharing                  $      720,000    $         715,537   $       -       $    715,537    $         -



   (A) The Award Budget amounts are for the period from October 1, 2004 through March 31, 2012,
       while the Claimed Costs are for the period from October 1, 2004 through December 31, 2010.

   (B) The total claimed costs agree with the total expenditures reported by ICSI on the Federal
       Financial Report – Federal Share of Net Disbursements as of the quarter ended December 31,
       2010. Claimed costs reported above are taken directly from ICSI’s books of accounts.

                            See Accompanying Notes to the Financial Schedules




                                                     25
                                                                                         Schedule A-2
                          The International Computer Science Institute
                          National Science Foundation Award No. IIS-0819984
                                       Schedule of Award Costs
                             Award Period: July 1, 2008 – July 31, 2012
                           Audit Period: July 1, 2008 – December 31, 2010
                                                Interim

                                                    (A)                          Claimed        Questioned
                                 Approved
        Cost Category                             Claimed                       Costs After       Costs
                                  Budget                        Adjustments
                                                   Costs                        Adjustments    Schedule B-2
Direct Costs:
 Salaries and wages          $      138,314   $       168,897   $       -       $    168,897   $       357
 Fringe benefits                     25,398            38,557               -         38,557           132
 Equipment                                -             2,453               -          2,453             -
 Travel                              18,000            10,834               -         10,834             -
 Participant support                 16,000             6,925               -          6,925             -
                                                                                           -
Other direct costs:                                                                        -             -
 Materials and supplies                   -                 -               -              -             -
 Publication costs                        -                 -               -              -             -
 Consultant services                      -                 -               -              -             -
 Computer services                        -                 -               -              -             -
 Subcontracts                       407,494           333,560               -        333,560       319,724
 Other                               81,320             4,292               -          4,292             -
Total Direct Costs                  686,526           565,518               -        565,518       320,213
                                                                                           -
Indirect Costs
Total                        $


   (A) The Award Budget amounts are for the period from July 1, 2008 through July 31, 2012, while the
       Claimed Costs are for the period from July 1, 2008 through December 31, 2010.

   (B) The total claimed costs agree with the total expenditures reported by ICSI on the Federal
       Financial Report – Federal Share of Net Disbursements as of the quarter ended December 31,
       2010. Claimed costs reported above are taken directly from ICSI’s books of accounts.

   See Accompanying Notes to the Financial Schedules




                                                    26
                                                                                        Schedule A-3
                       The International Computer Science Institute
                       National Science Foundation Award No. CNS-0855125
                                    Schedule of Award Costs
                         Award Period: August 1, 2009 – July 31, 2011
                        Audit Period: August 1, 2009 – December 31, 2010
                                             Interim

                              (A)               (B)                        Claimed         Questioned
     Cost Category          Approved          Claimed                     Costs After        Costs
                                                          Adjustments
                             Budget            Costs                      Adjustments     Schedule B-3

Direct Costs:
 Salaries and wages        $     4,800    $       1,590   $       -       $     1,590      $           -
 Fringe benefits                   576              125               -           125                  -
 Equipment                     198,292          171,202               -       171,202                  -
 Travel                              -                -               -             -                  -
 Participant support                 -                -               -             -                  -
Other direct costs:                                                                                    -
 Materials and supplies              -                -               -             -                  -
 Publication costs                   -                -               -             -                  -
 Consultant services                 -                -               -             -                  -
 Computer services                   -                -               -             -                  -
 Subcontracts                        -                -               -             -                  -
 Other                               -            4,238               -         4,238                  -
Total Direct Costs             203,668          177,155               -       177,155                  -
Indirect Costs                                                                                         -
Total                      $                                                               $           -


   (A) The Award Budget amounts are for the period from August 1, 2009 through July 31, 2011, while
      the Claimed Costs are for the period from August 1, 2009 through December 31, 2010.

   (B) The total claimed costs agree with the total expenditures reported by ICSI on the Federal
       Financial Report – Federal Share of Net Disbursements as of the quarter ended December 31,
       2010. Claimed costs reported above are taken directly from ICSI’s books of accounts.

   See Accompanying Notes to the Financial Schedules




                                                  27
                                                                                           Schedule A-4
                          The International Computer Science Institute
                          National Science Foundation Award No. IIS-0905647
                                       Schedule of Award Costs
                             Award Period: July 1, 2009 – June 30, 2013
                           Audit Period: July 1, 2009 – December 31, 2010
                                                Interim

                                   (A)              (B)                            Claimed        Questioned
        Cost Category            Approved         Claimed                         Costs After       Costs
                                                                  Adjustments
                                  Budget           Costs                          Adjustments    Schedule B-4

Direct Costs:
 Salaries and wages          $      116,862   $          63,832   $       -       $     63,832   $        649
 Fringe benefits                     19,618              14,009               -         14,009            240
 Equipment                            4,982                   -               -              -              -
 Travel                              20,000               3,348               -          3,348              -
 Participant support                      -                   -               -              -              -
                                                                                             -
Other direct costs:                                                                          -              -
 Materials and supplies                   -                   -               -              -              -
 Publication costs                        -                   -               -              -              -
 Consultant services                      -                   -               -              -              -
 Computer services                        -                   -               -              -              -
 Subcontracts                             -                   -               -              -              -
 Other                              114,136               5,727               -          5,727              -
Total Direct Costs                  275,598              86,916               -         86,916            889
Indirect Costs
Total                        $


   (A) The Award Budget amounts are for the period from July 1, 2009 through June 30, 2013, while
       the Claimed Costs are for the period from July 1, 2009 through December 31, 2010.

   (B) The total claimed costs agree with the total expenditures reported by ICSI on the Federal
       Financial Report – Federal Share of Net Disbursements as of the quarter ended December 31,
       2010. Claimed costs reported above are taken directly from ICSI’s books of accounts.

   See Accompanying Notes to the Financial Schedules




                                                    28
                                                                                           Schedule A-5
                           The International Computer Science Institute
                          National Science Foundation Award No. CNS-0722035
                                        Schedule of Award Costs
                          Award Period: September 1, 2007 – August 31, 2011
                          Audit Period: September 1, 2007 – December 31, 2010
                                                 Interim

                                   (A)              (B)                            Claimed        Questioned
        Cost Category            Approved         Claimed                         Costs After       Costs
                                                                  Adjustments
                                  Budget           Costs                          Adjustments    Schedule B-5

Direct Costs:
 Salaries and wages          $      520,733   $       440,621     $       -       $    440,621   $    11,183
 Fringe benefits                    140,049            88,217                 -         88,217         2,237
 Equipment                                -                 -                 -              -             -
 Travel                              33,950            31,421                 -         31,421         3,166
 Participant support                 36,000                 -                 -              -             -
Other direct costs:                                                                                        -
 Materials and supplies                   -                   -               -              -             -
 Publication costs                        -                   -               -              -             -
 Consultant services                      -                   -               -              -             -
 Computer services                        -                   -               -              -             -
 Subcontracts                             -                   -               -              -             -
 Other                                1,500              13,394               -         13,394             -
Total Direct Costs                  732,232           573,653                 -        573,653        16,586
Indirect Costs
Total                        $


   (A) The Award Budget amounts are for the period from September 1, 2007 through August 31, 2011,
       while the Claimed Costs are for the period from September 1, 2007 through December 31, 2010.

   (B) The total claimed costs agree with the total expenditures reported by ICSI on the Federal
       Financial Report – Federal Share of Net Disbursements as of the quarter ended December 31,
       2010. Claimed costs reported above are taken directly from ICSI’s books of accounts.

   See Accompanying Notes to the Financial Schedules




                                                    29
                                                                                     Schedule B-1

The International Computer Science Institute
National Science Foundation Award No. CNS-0433702
Schedule of Questioned Costs
From October 1, 2004 to December 31, 2010


1. Salaries and Wages – Questioned Costs of $45,093

   We are questioning $45,093 of salaries and wages representing effort reports which were not
   certified on a timely basis or were not signed by an individual possessing suitable means of
   verification as required by Federal regulation. (See Finding and Recommendation No. 2 in the
   Independent Auditors’ Report on Internal Control Over Financial Reporting and on Compliance
   and Other Matters.)

2. Fringe Benefits – Questioned Costs of $

   ICSI claimed fringe benefit costs to NSF pursuant to negotiated rate agreements at rates
   averaging       of claimed salaries and wages. As a result of questioning the above salaries and
   wages, we are questioning                                                     (See Finding and
   Recommendation No. 2 in the Independent Auditors’ Report on Internal Control Over Financial
   Reporting and on Compliance and Other Matters.)

3. Travel – Questioned Costs of $3,472

   We are questioning $3,472 of travel representing 2 airline flights on non-US flag carriers, when
   US flag carriers were available. (See Finding and Recommendation No. 3 in the Independent
   Auditors’ Report on Internal Control Over Financial Reporting and on Compliance and Other
   Matters.)

4. Indirect Costs - Questioned Costs of

   ICSI claimed indirect costs to NSF based on applying a rate of        against claimed Modified
   Total Direct Costs (MTDC) in years prior to 2010, and          in 2010. As a result, based upon
   questioning of $45,093 of salaries and wages and $9,650 of fringe benefits, we are questioning
            of indirect costs. (See Finding and Recommendation No. 2 in the Independent Auditors’
   Report on Internal Control Over Financial Reporting and on Compliance and Other Matters.)




                                               30
                                                                                    Schedule B-2

The International Computer Science Institute
National Science Foundation Award No. IIS-0819984
Schedule of Questioned Costs
From July 1, 2008 to December 31, 2010


1. Salaries and Wages – Questioned Costs of $357

   We are questioning $357 of salaries and wages representing effort reports which were not
   certified on a timely basis or were not signed by an individual possessing suitable means of
   verification as required by Federal regulation. (See Finding and Recommendation No. 2 in the
   Independent Auditors’ Report on Internal Control Over Financial Reporting and on Compliance
   and Other Matters.)

2. Fringe Benefits – Questioned Costs of

   ICSI claimed fringe benefit costs to NSF pursuant to negotiated rate agreements at rates
   averaging      of claimed salaries and wages. As a result of questioning the above salaries and
   wages, we are questioning                                                 . (See Finding and
   Recommendation No. 2 in the Independent Auditors’ Report on Internal Control Over Financial
   Reporting and on Compliance and Other Matters.)

3. Subcontracts – Questioned Costs of $319,724

   We are questioning $319,724 of subcontract costs representing labor and related fringe benefits
   and indirect costs that were not supported by certified labor effort reports. (See Finding and
   Recommendation No. 1 in the Independent Auditors’ Report on Internal Control Over Financial
   Reporting and on Compliance and Other Matters.)

4. Indirect Costs - Questioned Costs of

   ICSI claimed indirect costs to NSF based on applying a rate of        against claimed Modified
   Total Direct Costs (MTDC) in years prior to 2010, and          in 2010. As a result, based upon
   questioning of $357 of salaries and wages and $132 of fringe benefits, we are questioning
   of indirect costs. (See Finding and Recommendation No. 2 in the Independent Auditors’ Report
   on Internal Control Over Financial Reporting and on Compliance and Other Matters.)




                                               31
                                                                            Schedule B-3

The International Computer Science Institute
National Science Foundation Award No. CNS-0855125
Schedule of Questioned Costs
From August 1, 2009 to December 31, 2010


There were no questioned costs associated with National Science Foundation Award No. CNS-
0855125.




                                           32
                                                                                    Schedule B-4

The International Computer Science Institute
National Science Foundation Award No. IIS-0905647
Schedule of Questioned Costs
From July 1, 2009 to December 31, 2010


1. Salaries and Wages – Questioned Costs of $649

   We are questioning $649 of salaries and wages representing effort reports which were not
   certified on a timely basis or were not signed by an individual possessing suitable means of
   verification as required by Federal regulation. (See Finding and Recommendation No. 2 in the
   Independent Auditors’ Report on Internal Control Over Financial Reporting and on Compliance
   and Other Matters.)

2. Fringe Benefits – Questioned Costs of

   ICSI claimed fringe benefit costs to NSF pursuant to negotiated rate agreements at rates
   averaging      of claimed salaries and wages. As a result of questioning the above salaries and
   wages, we are questioning                                                   (See Finding and
   Recommendation No. 2 in the Independent Auditors’ Report on Internal Control Over Financial
   Reporting and on Compliance and Other Matters.)

3. Indirect Costs - Questioned Costs of

   ICSI claimed indirect costs to NSF based on applying a rate of        against claimed Modified
   Total Direct Costs (MTDC) in years prior to 2010, and          in 2010. As a result, based upon
   questioning of $649 of salaries and wages and $
   of indirect costs. (See Finding and Recommendation No. 2 in the Independent Auditors’ Report
   on Internal Control Over Financial Reporting and on Compliance and Other Matters.)




                                               33
                                                                                    Schedule B-5

The International Computer Science Institute
National Science Foundation Award No. CNS-0722035
Schedule of Questioned Costs
From September 1, 2007 to December 31, 2010


1. Salaries and Wages – Questioned Costs of $11,183

   We are questioning $11,183 of salaries and wages representing effort reports which were not
   certified on a timely basis or were not signed by an individual possessing suitable means of
   verification as required by Federal regulation. (See Finding and Recommendation No. 2 in the
   Independent Auditors’ Report on Internal Control Over Financial Reporting and on Compliance
   and Other Matters.)

2. Fringe Benefits – Questioned Costs of

   ICSI claimed fringe benefit costs to NSF pursuant to negotiated rate agreements at rates
   averaging 20% of claimed salaries and wages. As a result of questioning the above salaries and
   wages, we are questioning                                                   (See Finding and
   Recommendation No. 2 in the Independent Auditors’ Report on Internal Control Over Financial
   Reporting and on Compliance and Other Matters.)

3. Travel – Questioned Costs of $3,166

  We are questioning $3,166 of travel representing 2 airline flights on non-US flag carriers, when
  US flag carriers were available. (See Finding and Recommendation No. 3 in the Independent
  Auditors’ Report on Internal Control Over Financial Reporting and on Compliance and Other
  Matters.)

4. Indirect Costs - Questioned Costs of

   ICSI claimed indirect costs to NSF based on applying a rate of     % against claimed Modified
   Total Direct Costs (MTDC) in years prior to 2010, and          in 2010. As a result, based upon
   questioning of $11,183 of salaries and wages and
              indirect costs. (See Finding and Recommendation No. 2 in the Independent Auditors’
   Report on Internal Control Over Financial Reporting and on Compliance and Other Matters.)




                                               34
                                                                                     Schedule C

                    T h e I n tern ati on al Co mp u ter S ci en ce I n s ti tu te
                                  National Science Foundation
                 Award Number CNS-0433702, IIS-0819984, CNS-0855125,
                               IIS-0905647 and CNS-0722035
                   Summary of Questioned and Unsupported Costs by Finding

                       Period from October 1, 2004 through December 31, 2010



                        Non-
                     Compliance                         (A)         Amount of        Amount of
                       and/or         Material,      Amount of     Unsupported       Claimed
                      Internal       Significant     Questioned       Costs           Costs
     Finding          Control         or Other?        Costs       Questioned        Affected


1. Lack of              Non-
   adequate fiscal   compliance      Significant
                                                     $ 319,724      $319,724         $ 333,560
   monitoring of     and Internal    Deficiency
   subawardee          Control



                        Non-
2. Inadequate
                     compliance      Significant
   effort                                            $124,827       $124,827         $4,252,988
                     and Internal    Deficiency
   reporting
                       Control


3. Inadequate
   policies,
   procedures and
   training of
                        Non-
   Personnel
                     compliance      Significant
   Responsible                                        $ 6,638          $   -         $ 146,154
                     and Internal    Deficiency
   for
                       Control
   Compliance
   with Foreign
   Travel
   Requirements




                                                35
                      The International Computer Science Institute
                              Notes to the Financial Schedules
         Awards IIS-0905647, CNS-0433702, CNS-0855125, IIS-0819984, and CNS-0722035
                           From October 1, 2004 to December 31, 2010


Note 1: Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions, which are based on a comprehensive basis of accounting other than
generally accepted accounting principles. Schedules A-1 to A-5 have been prepared by the
International Computer Science Institute from the Federal Financial Reports submitted to NSF and
ICSI’s accounting records. The basis of accounting utilized in preparation of these reports differs from
accounting principles generally accepted in the United States of America. The following information
summarizes these differences:

A. Equity - Under the terms of the awards, all funds not expended according to the award agreements
   and budgets at the end of the award periods are to be returned to NSF. Therefore, the awardee does
   not retain equity in the award and any excess cash received from NSF over final expenditures is
   due back to NSF.

B. Equipment - Equipment is charged to expense in the period during which it is purchased instead of
   being recognized as an asset and depreciated over its useful life. As a result, the expenses
   reflected in the Schedules of Award Costs include the cost of equipment purchased during the
   period rather than a provision for depreciation.

   Except for awards with nonstandard terms and conditions, title to equipment under NSF awards
   vests in the recipient, for use in the project or program for which it was acquired, as long as it is
   needed. The recipient may not encumber the property without approval of the federal awarding
   agency, but may use the equipment for its other federally sponsored activities, when it is no longer
   needed for the original project.

C. Inventory - Minor materials and supplies are charged to expense during the period of purchase. As a
   result, no inventory is recognized for these items in the financial schedules.

D. Income Taxes - The Institute is a nonprofit organization and is exempt from income taxes under
   Internal Revenue Code Section 501(c)(3) and from California Franchise and/or Income taxes under
   the Revenue and Taxation Code, Section 23701(d).

The departures from generally accepted accounting principles allow NSF to properly monitor and
track actual expenditures incurred by the awardee. The departures do not constitute material
weaknesses in internal controls.




                                                 36
                          The International Computer Science Institute
                                 Notes to the Financial Schedules
                             From August 1, 2002 to December 31, 2010

Note 2: NSF Cost Sharing and Matching

The Institute is required by the terms of award CNS-0433702 to provide cost share amounting to
$120,000 per year for 6 years, or $720,000 in total. Below is a summary of the cost share requirements
through the first five (5) years of the award (year ended March 31, 2010), and the actual cost share as
of December 31, 2010:

   Number              Cost                  Cost           Unallowable        Net           Share
    CNS-               Share                 Share             Cost           Cost      Over/(Under)
   0433702            Required              Claimed           Share           Share         Required
     Total        $     600,000         $    715,537    $             -   $   715,537   $     115,537


Note 3: Indirect Cost Rates

The Institute’s indirect cost rate is a provisional rate negotiated with the Defense Contract Audit
Agency and applied to modified total direct costs. The indirect cost rates applied to the awards were
as follows:

               Year              Rate

               FY 05
               FY 06
               FY 07
               FY 08
               FY 09
               FY 10




                                                       37
APPENDIX A – STATUS OF PRIOR REVIEW
              FINDINGS
                                                                                             Appendix A
                                   Status of Prior Review Findings

In September 2008, Booz, Allen & Hamilton conducted a desk review of International Computer
Science Institute, (ICSI) on behalf of the National Science Foundation. The review included an
assessment of ICSI’s award-related management practices, a review of the accounting and financial
systems, and a reconciliation of one quarter’s financial FCTR information for award number CNS-
0433702 with ICSI’s corresponding accounting records. The National Science Foundation issued
their report in October 2008 citing concerns about ICSI’s management practices and accounting and
financial systems. The findings, recommendations and current status are set forth in the following
table.


               Finding                     Recommendation                           Status


 ICSI’s time and effort reporting         PAR or time reports      Effective January 1, 2009, ICSI
 form does not appear to comply           showing the number       implemented a revised PAR form which
 with the Office of Management            of hours on each         shows the hours worked for all
 and Budget (OMB) A-122                   activity and the total   government grant awards by each
 standards in that it only delineates     hours for the            employee.
 the percentage distribution of           reporting period         .
 effort spent on various activities; it   should be used for
 does not delineate the number of         all federal awards.
 hours for each activity or the total
 hours for the reporting period.

 The written policies and                 The Institute should     ICSI utilizes a Monthly Project Report
 procedures related to expenditure        adopt procedures to      which records the monthly and
 monitoring were drafted for              ensure that awards       cumulative project costs, in addition to
 the purpose of the review and are        are effectively          the project budget. This report provides
 not official, documented policies.       monitored and            a tool for monitoring project costs to
 In addition, ICSI does not appear        should ensure that       ensure budgets are not exceeded.
 to have procedures in place to           written policies and     Management of ICSI has written
 ensure that awards are effectively       procedures related to    official policies and procedures
 monitored so as to preclude              expenditure              covering the monitoring of all
 incurring obligations in excess of       monitoring are           externally-funded costs. However, our
 approved award budgets.                  communicated and         audit identified weaknesses in ICSI’s
                                          adhered to by all        subaward monitoring which indicate
                                          ICSI personnel.          that written policies and procedures
                                                                   should be expanded in this area.
 Comingling of direct and indirect                                 No comingling of direct and indirect
 costs when preparing the indirect                                 costs was identified by the audit
 cost rate proposal.                                               procedures performed.
 Inadequate chart of accounts                                      The Institute’s chart of accounts is
                                                                   adequate to provide accountability for
                                                                   federal awards



                                                    39
APPENDIX B – AWARDEE’S COMMENTS
            TO REPORT
APPENDIX C – EXIT CONFERENCE
                                                                                Appendix C

Exit Conference

An exit conference was held on May 26, 2011 at the ICSI offices, with Mr. Billy McCain
participating via teleconference. Preliminary findings and recommendations were discussed. It
was explained that the preliminary findings and recommendations were subject to final review
by NSF and that report may include additional findings, recommendations, and/or omit certain
items discussed.

Attendees:

                                     International Computer Science Institute

Billy McCain, Audit Manager, National Science Foundation

                        , McBride, Lock & Associates




                                             45
       HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL


            Internet
          www.oig.nsf.gov


           Email Hotline
           oig@nsf.gov


             Telephone
            703-292-7100


    Toll-Free Anonymous Hotline
           1-800-428-2189


                Fax
            703-292-9158


                Mail
    Office of Inspector General
    National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 46
